No.

IN THE SUPREME COURT OF THE UNITED STATES

RUSSELL DAVIS,
PETITIONER,
VS.
UNITED STATES OF AMERICA,
RESPONDENT.

PROOF OF SERVICE OF MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS AND PETITION FOR CERTIORARI

I, Dennis C. Belli, being counsel appointed pursuant to 18 U.S.C. ยง3006A to represent
Petitioner, hereby certify that the original and ten copies of the Motion for Leave to
Proceed in Forma Pauperis and Petition for a Writ of Certiorari were sent by Priority U.S.
mail, postage prepaid, to the Clerk of the Supreme Court, 1 First St. N.E., Washington, D.C.
20543-0001; that one copy of each were served on the Solicitor General of the United
States, Room 5616, Department of Justice, 950 Pennsylvania Ave., N.W., Washington, D.C.
20530-0001 by first-class U.S. mail, postage prepaid, this 6th day of November, 2020; and
that all parties required to be served have been served.

s/Dennis C. Belli

DENNIS C. BELLI
536 South High St. Fl. 2
Columbus, Ohio 43215-5785
Phone:(614) 300-2911
Fax: (888) 901-8040
Email:
bellilawoffice@yahoo.com
ATTORNEY FOR PETITIONER

